                       CLOSEOUT FOR M94120042




                            to OIG.   T




        The complainant was a part-time curator at the university
museum and an unfunded research associate with the university's
           department when the award was made. She alleged that,
             received the award, her supervisor at the museum, Dr.
                (the subject), impeded the progress of her research by
-asonable                and unnecessary work demands on her and
 arbitrarily depriving her of the flexibility that she had hitherto
 enjoyed to set her own hours of work at her museum job.            In
 particular, she alleged.that the subject had unreasonably forbidden
 her from absenting herself from work for consecutive days during
 the academic year in order to do field research. She also alleged
 that he arbitrarily refused to authorize her purchase of equipment
 listed in her grant budget and necessary for her research. She
 further alleged that, after she complained that his actions
 constituted sex discrimination, the university retaliated against
 her.
     OIG examined the award jacket and wrote to the subject. We
determined that the subject interfered with neither the
complainant's ability to fulfill the time commitments she made to
NSF concerning her research nor her research activity at times when
NSF was funding her research time. The alleged interference with
the complainant's research took place during the academic year.
The complainant's proposal did not state that at times she would
need to absent herself from her job during the academic year to
pursue her research, and NSF was paying her salary only during the
summer. We therefore concluded that the subject's actions did not
interfere with the work commitments that the complainant and her
university made in accepting the award.

                             page 1 of 3
                      CLOSEOUT FOR M94120042

     We further concluded that the subject, as the complainant's
supervisor, did not have an obligation to give the complainant's
requests for convenient research time priority over the subject's
perceived responsibilities as head of the museum. When we wrote to
the subject, he noted that the museum was experiencing significant
budget cuts at the time he refused the complainant's requests. The
subject   gave    plausible    reasons,    consistent   with   his
responsibilities at the museum, for imposing tighter supervisory
control over the complainant.
     OIG spoke to the university administrator who handled the        .
equipment purchase order that the complainant submitted and the
subject refused to approve. The administrator informed us that, at
the time the subject refused his approval, the grant funds to cover
the purchase were in the process of being transferred out of the
museum's accounts and into another account to which the complainant
would have access and over which the subject lacked control. She
noted that the subject might have been obliged to pay for the
equipment out of museum funds if, after the subject authorized the
purchase, the grant funds intended to cover it were moved to
accounts outside the museum's control. Under these circumstances,
we concluded that the subject's refusal to authorize the
complainant's purchase was also consistent with a plausible
understanding of his responsibilities to the museum.
     The complainant alleged that the university denied her access
to equipment and facilities that she had represented in her
proposal as available to her and that the university, in choosing
to submit her proposal, had committed itself to making available to
her. We informed the cognizant NSF division of this allegation and
suggested that NSF seek assurances from responsible officials at
the university that the complainant and other project personnel
would have reasonable access to these facilities and equipment for
the duration of the award. We further suggested that NSF consider
suggesting to responsible university officials the possibility and
appropriateness of using NSF indirect cost payments to make
personal office and laboratory space available to the complainant
so that she might more easily pursue her grant related research.
The cognizant program officer contacted the university and received
written assurances from the vice chancellor for research and the
provost that the complainant would' have access to promised
facilities and equipment.
     The complainant alleged that, because she was a woman and
because she complained of gender discrimination, the grantee
university engaged in "a widespread program of persistent
retaliation and harassmentu against her. As instances of this
program, she cited the university's actions'to deprive her of her
office at the museum (and, temporarily, of access to her grant
                                                        '



                           page 2 of 3                      M94-42
                      CLOSEOUT FOR M94120042

related research materials), deprive her of laboratory space of her
own at the department (while permitting her access to common
laboratory space), delay authorizing necessary grant-related
expenditures, and transfer grant funds to the PI'S employer after
the complainant was laid off from her university job.           OIG
determined that the university's actions, if carried out in a non-
discriminatory way, would have been within the range of its
managerial discretion.     These actions cannot be construed as
sabotaging the complainant's research and are not otherwise
misconduct in science. The complainant had initially alleged that
she was the victim of gender discrimination and sought redress from
a state government agency specializing in that area. OIG concluded
that in this case the issue of gender discrimination is
appropriately considered by such an agency, rather than by OIG.
     NSF1s regulation on misconduct in science and engineering
includes "retaliation of any kind against a person who reported or
provided information about suspected or alleged misconduct and who
has not acted in bad faithv as part of the definition of
misconduct. Because the grantee institution's alleged retaliation
was allegedly occasioned by a complaint of gender discrimination,
and did not raise issues of misconduct in science, it does not fall
within the definition.
     This inquiry is closed and no further action will be taken on
this case.




                           page 3 of 3
